APPENDIX A

1

Case: 20-10498

Document: 00515699838

Page:!

Date Filed: 01/08/2021

Q8mtet> States Court of Appeals:
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 8, 2021

No. 20-10498
Summary Calendar

Lyle W. Cayce
Clerk

In the Matter of: William Paul Burch
Debtor,
William Paul Burch,
Appellant,
versus
Freedom Mortgage Corporation,
Appellee,

In the Matter of: William Paul Burch
Debtor.
William Paul Burch,
Appellant,
versus
JP Morgan Chase Bank National Association,
Appellee,

Case: 20-10498

Document: 00515699838

Page: 2

Date Filed: 01/08/2021

No. 20-10498

In the matter of: William Paul Burch
Debtor,
William Paul Burch
Appellant,
versus
Hughes Waters Askanase; Michael Weems; Specialized
Loan Servicing, L.L.C.; Padfield; Stout, L.L.P.; Mark W.
Stout,
Appellees,

In the Matter of: William Paul Burch
Debtor,
William Paul Burch
Appellant,
versus
Homeward Residential, Incorporated,
Appellee,

In the Matter of: William Paul Burch
Debtor,
William Paul Burch
Appellant,
versus

2

Case: 20-10498

Document: 00515699838

Page: 3

Date Filed; 01/08/2021

No. 20-10498

Homeward Residential, Incorporated
Appellee,

In the Matter of: William Paul Burch
Debtor,
William Paul Burch,
Appellant,
versus
Ocwen Loan Servicing Company,
Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC Nos. 4:20-CV-363, 4:20-CV-364, 4:20-CV-365,
4:20-CV-366, 4:20-CV-367, 4:20-CV-369

BeforeJoLLY, Elrod, and Graves, Circuit Judges.
Per Curiam:*
The underlying proceedings that led to this consolidated appeal began
as six separate state court actions filed by Appellant William Paul Burch
based on a Chapter 11 plan confirmed by a bankruptcy court in 2009. The
defendants in each proceeding removed those claims either directly to the

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not he published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

3

Case: 20-10498

Document; 00515699838

Page: 4

Date Filed: 01/08/2021

No. 20-10498

Bankruptcy Court for the Northern District of Texas, or to the District Court
for the Northern District of Texas, which referred those cases to the
Bankruptcy Court for the Northern District of Texas under 28 U.S.C.
§ 157(a). The bankruptcy court denied Burch’s motions to remand each of
the cases and dismissed some of the cases under rules 12(b)(6) or 12(c).
Burch appealed each of those decisions to the district court, including in
some cases where the bankruptcy court had yet to rule on the merits. The
district court denied Burch’s request to proceed in forma pauperis (“IFP”)
and warned Burch that failure to pay the filing fee would result in dismissal.
When Burch did not timely pay the filing fee, the district court dismissed his
appeals. Burch then appealed to this court, arguing that the bankruptcy court
lacked subject-matter jurisdiction over the removed cases. We dismiss
Burch’s appeals against Homeward Residential, Inc. (“Homeward”) and
Ocwen Loan Servicing Corp. (“Ocwen”) for lack of subject-matter
jurisdiction and affirm the district court’s dismissal of the remaining
appeals.
I.
In 2006 and 2007, Burch and his wife, Juanita Burch, obtained
mortgages on several properties in Texas. Each of those mortgages was held
by the various defendant-appellants in this appeal. On December 1,2008, the
Burches filed for chapter 11 bankruptcy (“the 2008 Bankruptcy Case”) to
prevent foreclosure on the properties. On December 9,2009, the Bankruptcy
Court for the Northern District of Texas entered an order confirming a plan
of reorganization under chapter 11 (“2009 Chapter 11 Plan”). The order
accompanying the 2009 Chapter 11 Plan included provisions calling for the
Burches and the mortgagees to “enter into a New [] Note” for each of the
properties, and the order set the payment terms for these new notes.
Burch filed a second bankruptcy petition on December 28, 2012, also
in the Bankruptcy Court for the Northern District of Texas. This petition

4

Case: 20-10498

Document: 00515699838

Page: 5

Date Filed: 01/08/2021

No. 20-10498

was filed under chapter 13 but was converted to chapter 11 on December 23,
2013. The defendant-appellees in this case filed proofs of claims in the 2012
bankruptcy case, which the bankruptcy court recognized. Nothing in the
2012 bankruptcy case chapter 11 plan or confirmation order indicated that the
defendant-appellees’ secured claims were void or disallowed because of
language in the 2009 Chapter 11 Plan or because of events that took place
after confirmation of the 2009 Chapter 11 Plan. The 2012 bankruptcy case
was converted to chapter 7 on January 30, 2018, based on, among other
things, Burch’s defaults under the 2012 bankruptcy case’s chapter 11 plan.
The 2012 bankruptcy case is still pending.
In 2018, Burch began filing claims in Texas state courts against the
defendant-appellants, generally asserting that the defendant-appellants failed
to timely provide certain loan documents that he said the 2009 Chapter 11
Plan required, rendering the defendant-appellants’ liens on Burch’s
properties void. Specifically, Burch alleges that the defendant-appellees
failed to timely comply with the 2009 Chapter 11 Plan’s requirement of new
notes and mortgages on each of the properties, and this failure invalidates the
original notes and liens. The defendant-appellants each removed those cases
to federal courts based on either diversity jurisdiction—which were removed
to the district court—or as cases related to the bankruptcy proceedings under
28 U.S.C. §§ 1334 and 1452—which cases were removed directly to the
bankruptcy court.
The district court transferred the cases before it to the bankruptcy
court, where Burch moved to remand to state court and the defendants all
moved for dismissal under rules 12(b)(6) or 12(c). The bankruptcy court
denied Burch’s motions to remand in each of the cases, concluding that
“none of the Motions identify any factual or legal basis challenging the initial
removal of each case or justifying remand of any of the cases to a Texas state
court.” The bankruptcy court further concluded that Burch’s “Motion fails

5

Case: 20-10498

Document: 00515699838

Page: 6

Date Filed: 01/08/2021

No. 20-10498

to identify any reason why this Court does not have subject matter
jurisdiction over the Plaintiff’s claims asserted in each of the Adversary
Proceedings,” and the bankruptcy court instead concluded that is has “core
matter jurisdiction” over each of the removed cases under 28 U.S.C. § 157.
The bankruptcy court determined that each removed case is premised on the
2008 chapter 11 case’s bankruptcy plan, and the “the bulk, if not all, of
Plaintiff’s claims in each of the Adversary Proceedings attempt to collaterally
attack the Court’s prior orders relating to either the 2008 Bankruptcy Case
and/or the 2012 Bankruptcy Case.” In 2019 and early 2020, the bankruptcy
court granted some of the defendant-appellees’ motions to dismiss. Burch
then appealed each of his cases to the district court, hut the bankruptcy court
had entered final judgment in only some of the cases; in others it had only
denied Burch’s motions for remand.
Before the district court, Burch sought leave to proceed IFP. The
district court denied Burch’s IFP request, relying in part on the bankruptcy
court’s designation of Burch as a vexatious litigant in concluding that Burch’s
appeals were not taken in good faith. The district court also denied Burch’s
motions for reconsideration of its decisions on the IFP motion. The district
court then warned Burch that if the filing fees were not paid by May 12,2020,
his appeals “maybe dismissed. ” After Burch failed to timely pay the required
filing fee, the district court dismissed his appeals. Burch now appeals to this
court, generally arguing that the bankruptcy court lacked subject-matter
jurisdiction over the removed state-law claims. At the time Burch appealed
to this court, the bankruptcy court had not entered final judgments in
Burch’s cases against defendant-appellees Homeward and Ocwen, leading
the two defendant-appellees to seek dismissal for lack of subject matter
jurisdiction. However, the bankruptcy court has since dismissed each of
Burch’s underlying cases.

6

Case; 20-10498

Document; 00515699838

Page: 7

Date Filed: 01/08/2021

No. 20-10498

II,
We must first determine whether we have jurisdiction over each of
Burch’s appeals. Some of his appeals—the ones against Homeward and
Ocwen—came to this court while the underlying proceedings against him
were ongoing, but each of those cases has since been closed in the bankruptcy
court.
Parties to a bankruptcy proceeding may appeal all of a bankruptcy
court’s final orders to the district court as of right. Matter of Greene Cty.
Hosp.y 835 F.2d 589, 591 (5th Cir. 1988). The parties may also appeal final
orders to the court of appeals as of right. Id. A district court may, in its
discretion, take jurisdiction over interlocutory appeals from the bankruptcy
court, but we have no such discretion; our jurisdiction over appeals from
cases arising in bankruptcy court extends to all “final judgments, orders and
decrees” entered by the district courts. 28 U.S.C. § 158(d), referencing
subsection 158(a); In re Greene Cnty. Hospital, 835 F.2d 589, 590 (5th Cir.
1988) (noting that “28 U.S.C. § 158 limits circuit court jurisdiction to ‘final’
orders of district courts”). Accordingly, our jurisdiction over bankruptcy
appeals is more limited than that of district courts—for us, the issue of
finality is central.
If a district court’s remand order requires extensive further
proceedings in the bankruptcy court, then this court does not view the district
court’s order as final, and thus it is not appealable. See In re Caddo ParishVillas S.j Ltd., 174 F.3d 624, 628 (5th Cir. 1999) (“A long, unbroken line of
cases establishes the general rule in this circuit that a district court order is
not a final order under section 158(d) where that order reverses an order of
the bankruptcy court and remands the case to the bankruptcy court for
significant further proceedings.”). “In determining what constitutes
‘significant further proceedings,’ we distinguish between those remands
requiring the bankruptcy court to perform ‘judicial functions’ and those

7

Case; 20-10498

Document: 00515699838

Page: 8

Date Filed: 01/08/2021

No. 20-10498

requiring mere ‘ministerial functions.’” In re Cortez, 457 F.3d 448, 453 (5th
Cir. 2006) (citation omitted). A remand order is not final when it requires a
bankruptcy court to perform judicial functions or requires the exercise of
judicial discretion. Cortez, 457 F.3d at 453 (“Remands that require the
bankruptcy court to perform judicial functions, such as additional fact­
finding, are not final orders and, therefore, are not appealable to this court.”
(citing In re Aegis Specialty Mktg.} Inc., 68 F.3d 919,921 (5th Cir. 1995))).
Turning to this case, the notices of appeal in three of the cases below
involving Homeward and Ocwen were from the bankruptcy court’s denial of
Burch’s motion for remand, and so, when the district court dismissed those
appeals, the underlying proceedings were still live, with significant motions
pending before the bankruptcy court. “The district court’s order [in those
cases] is therefore not a final order, and as such, it is not appealable to this
Court.” In re Yazoo Pipeline Co., L.P., 746 F.3d 211, 216 (5th Cir. 2014). The
bankruptcy court, however, has since entered final judgment in Burch’s cases
against Homeward and Ocwen. But Burch did not appeal those decisions to
the district court. Accordingly, in those cases, Burch appeals not the district
court’s dismissal of Burch’s appeals, but rather the bankruptcy court’s »
dismissal of the underlying actions. Accordingly, neither § 1452 nor
§ 158(d)(1), which confers appellate jurisdiction only over final decisions of
the district court, affords us subject-matter jurisdiction over the HomewardOcwen appeals. See Gomez, 404 F. App’x at 855.1
The only remaining potential basis for our jurisdiction over the
Homeward-Ocwen appeals—§ 158(d)(2)—is inapplicable. See 28 U.S.C.

1A bankruptcy court’s decision not to remand, based not on equitable grounds but
rather on subject-matter jurisdiction, is reviewable by the court of appeals. See In re
BissonnetInvestmentsLLC, 320 F.3d 520,525 (5th Cir. 2003). But no statute authorizes an
appeal to this court from a bankruptcy court’s denial of a remand motion before the
bankruptcy court has entered a final order.

8

Case: 20-10498

Document: 00515699838

Page: 9

Date Filed: 01/08/2021

No. 20-10498

§ 158(d)(2)(A) (giving circuit courts discretion to hear a direct appeal from a
bankruptcy court decision in the event the bankruptcy court, the district
court, a bankruptcy appellate panel, or all appellants and appellees acting
jointly make a statutory certification). Burch’s failure to satisfy the statutory
certification requirement concludes our jurisdictional inquiry. See Bowles v.
Russell, 551 U.S. 205, 213 (2Q07) (stating that when an “appeal has not been
prosecuted in the manner directed, within the time limited by the acts of
Congress, it must be dismissed for want of jurisdiction”). And even if Burch
had tried to invoke § 158(d)(2)(A), certification would not have been proper
given the straightforward legal issues before the bankruptcy court regarding
the interpretation of its own orders in the 2009 Chapter 11 Plan. Accordingly
we dismiss for want of jurisdiction Burch v. Homeward, Adv. No. 19-04075mxm (district court case No.4:20-cv-366-A); Burch v. Homeward, Adv. No.
19-04074-mxm (district court case No. 4:20-cv-00367-A); and Burch v.
Ocwen, Adv. No. 19-04039-mxm (district court case No. 4:20-cv-369-A).
III.
Turning to the remaining cases, Burch’s arguments are frivolous. He
argues that the bankruptcy court lacked subject-matter jurisdiction over
Burch’s removed state-law claims. We review whether “a district or
bankruptcy court possessed subject matter jurisdiction over a bankruptcy
case de novo.” In re KSRP} Ltd., 8Q9 F.3d 263, 266 (5th Cir. 2Q15). “A
bankruptcy court’s jurisdiction extends to all civil proceedings arising under
title 11, or arising in or related to cases under title 11. ” In Matter ofGalaz, 841
F.3d 316, 322 (5th Cir. 2016). A bankruptcy court also maintains
“jurisdiction to interpret and enforce its own prior orders.” Galaz, 841 F.3d
at 322. “Subject matter jurisdiction remains in the bankruptcy court, even
after a bankruptcy case is closed, to assure that the rights afforded to a debtor
by the Bankruptcy Code are fully vindicated.” Id. A bankruptcy court
maintains “jurisdiction to interpret and enforce its own prior orders.”

9

Case; 20-10498

Document: 00515699838

Page: 10

Date Filed: 01/08/2021

No. 20-10498

Travelers Indent. Co. v. Bailey, 557 U.S. 137, 151 (20Q9). “Subject matter
jurisdiction remains in the bankruptcy court, even after a bankruptcy case is
closed, ‘to assure that the rights afforded to a debtor by the Bankruptcy Code
are fully vindicated.’” In Matter of Galaz, 841 F.3d 316, 322 (5th Cir. 2016)
(quoting Padilla v. Wells Fargo HomeMortg.j Inc. (In re Padilla), 379 B.R. 643,
652 n.4 (Bankr. S.D. Tex. 2007)).
Regarding a district court’s transfer of a proceeding to a bankruptcy
court, 28 U.S.C. § 157(a) provides that “each district court may provide that
proceedings arising under title 11 as core proceedings or arising in or related
to a case under title 11, shall be referred to the bankruptcy judges for the dis­
trict.” A proceeding is “core” if “it invokes a substantive right provided by
title 11 or if it is a proceeding that, by its nature, could arise only in the context
of a bankruptcy case.” In re Wood, 825 F.2d 90, 97 (5th Cir. 1987). The dis­
trict court may also refer a case to the bankruptcy judge if the case is related
to a bankruptcy case. Wood, 825 F.2d at 93. A case is “related” to a bank­
ruptcy proceeding if “the outcome of [the non-bankruptcy] proceeding could
conceivably have any effect on the estate being administered in bankruptcy.”
Id. (quoting Pacor, Inc. v. Higgins, 743 F.2d 984, 994 (3rd Cir. 1984)).
Burch’s removed state-law claims plainly fit within these definitions.
Each of Burch’s state-court claims is premised on his interpretation of a
Chapter 11 bankruptcy order, and so each arises from or is related to his Title
11 bankruptcy proceedings. Specifically, Burch alleges that the 2009 Chapter
11 Plan required the defendants to issue new mortgage notes within six
months, and so the defendants’ alleged failure to do so renders invalid their
mortgage liens on his properties. Additionally, in the 2012 bankruptcy pro­
ceedings, the bankruptcy court entered additional orders pertaining to the
properties and the continued validity of the notes and liens at issue. See Burch
v. Freedom Mort. Corp., 4:18-CV-01015-0-BP, 2019 WL 3021176, at *1 (N.D.
Tex. July 2, 2019), report and recommendation adopted, 4:18-CV-01015-0-BP,

10

Case: 20-10498

Document: 00515699838

Page: 11

Date Filed: 01/08/2021

No. 20-10498

2Q19 WL 3006535 (N.D. Tex. July 10, 2019). The state law causes of action
that Burch asserts bear on the interpretation and execution of the 2009 Chap­
ter 11 Plan. Further, the removed cases would “conceivably affect” the bank­
ruptcy estate by potentially negating the defendant-appellees secured claims,
Wood, 825 F.2d at 93 (cleaned up), and so the district court properly trans­
ferred the removed cases to the bankruptcy court. Alternatively, the bank­
ruptcy court and the district court also had diversity jurisdiction over Burch ’ s
suit against JP Morgan Chase Bank. Burch is a citizen of Texas, while JP Mor­
gan Chase is a citizen of Ohio, and Burch expressly sought monetary damages
from JP Morgan Chase in excess of $75,000.00. See 28 U.S.C. § 1332. Ac­
cordingly, both the district court and the bankruptcy court had jurisdiction
over the removed cases.
IV.
The bankruptcy court dismissed Burch’s claims under rule 12(b) and
12(c), and the district court dismissed Burch’s appeals from the bankruptcy
court for failure to pay the filing fee after the district court denied Burch’s
request to proceed IFP. Burch argues that the bankruptcy court’s rule 12
dismissals violate his Seventh Amendment rights. But a bankruptcy court’s
dismissal of claims pursuant to a valid 12(b)(6) motion does not violate a
plaintiff’s right to a jury trial under the Seventh Amendment. See Haase v.
Countrywide Home Loans} Inc., 748 F.3d 624, 631 n.5 (5th Cir. 2014);
McFarland v. Leyh, 52 F.3d 1330, 1339 (5th Cir. 1995) (“No right to a jury
trial arises if no jury issue is presented to the court.”); King v. Fidelity Nat.
Bank ofBaton Rouge, 712 F.2d 188,192-93 (5th Cir. 1983).
Finally, although Burch now contests the bankruptcy court’s
jurisdiction, he does not contest the district court’s dismissal of his appeal
for failure to pay the filing fee or the district court’s denial of his motion to
proceed in forma pauperis. While “the denial by a District Judge of a motion
to proceed in forma pauperis is an appealable order,” Roberts v. U.S. Dist.

ll

Case: 20-10498

Document: 00515699838

Page: 12

Date Filed: 01/08/2021

No. 20-10498

Ct., 339 U.S. 844, 845 (195Q) (per curiam), Burch forfeited this issue by
failing to brief it. See, e.g., United States v. Elashyi, 554 F.3d 480,494 (5th Cir.
2008). This court liberally construes pro se litigants’ briefing, but even pro
se litigants must brief their arguments to avoid forfeiture. See Grant v.
Cuellar, 59 F.3d 523, 524 (5th Cir. 1995); Yohey v. Collins, 985 F.2d 222, 225
(5th Cir. 1993).
In any case, even if Burch did not waive this issue, the district court
did not abuse its discretion in dismissing Burch’s appeals. This court
“review[s] actions taken by the district court in its appellate role for an abuse
of discretion.” In re CPDC Inc., 221 F.3d 693, 698 (5th Cir. 2000). The
district court did not abuse its discretion in denying Burch’s IFP motion or
in dismissing Burch’s appeal. A litigant seeking IFP status must submit an
affidavit identifying all assets she possesses, as well as a statement that she is
unable to pay the necessary fees of bringing a federal civil action. 28 U.S.C.
§ 1915(a)(1). “In proceedings brought in forma pauperis, the district court
has discretion to dismiss the case if the allegation of poverty is untrue. 28
U.S.C. § 1915(d).” Lay v. Justices-MiddleDist. Court, 811 F.2d 285, 285 (5th
Cir. 1987). Here, Burch submitted no affidavit, but instead provided a brief
narrative about his social security income. The district court accordingly did
not abuse its discretion in denying Burch’s IFP motion. As for its subsequent
dismissal for Burch’s failure to pay the filing fees, this court has affirmed a
district court’s dismissal of a bankruptcy appeal for failure to pay the filing
fees after denial of an IFP request. In re Valentine, 733 F. App’x 184,187 (5th
Cir. 2018) (per curiam); In re Hall, 354 F. App’x 842, 843 (5th Cir. 2009)
(per curiam) (finding “no error in the dismissal of the [appellant’s] appeal
from the bankruptcy court on account of his failure to pay the filing fees”).
V.
We dismiss Burch’s appeals against Homeward and Ocwen for want
of jurisdiction, and we otherwise affirm the district court’s dismissal of

12

Case: 20-10498

Document: 00515699838

Page: 13

Date Filed: 01/08/2021

No. 20-10498

Burch’s remaining appeals. We also note that, after Burch filed a series of
baseless motions, the bankruptcy court deemed Burch a vexatious litigant.
Burch has continued his pattern of filing excessive and frivolous motions
before this court. We warn Burch that any further frivolous or abusive filings
in this court, the district court, or the bankruptcy court will invite the
imposition of sanctions, including dismissal, monetary sanctions, and/or
restrictions on his ability to file pleadings in this court and any court subject
to this court’s jurisdiction.

\

13

Case: 20-10498

Document: 00515699846

Page: 1

Date Filed: 01/08/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 08, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-10498

Burch v.
USDC No.
USDC No.
USDC No.
USDC No.
USDC No.
USDC No.

Freedom Mortgage
4 : 20-CV-364
4 : 20-CV-363
4:20-CV-365
4:2O-CV-366
4 : 20-CV-367
4:20-CV-369

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5th Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion for
a stay ol mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for

Case: 20-10498

Document: 00515699846

Page: 2

Date Filed: 01/08/2021

rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.
The judgment entered provides that each party bear its own costs
on appeal.

Sincerely,
LYLE W. CAYCE, Clerk

4

%

By:
Nancy F.Dolly,Deputy Clerk
Enclosure(s)
Mr.
Mr.
Ms.
Mr.
Mr.
Mr.
Mr.
Mr.
Mr.
Ms.
Mr.
Ms.

Marc James Ayers
William Paul Burch
Elizabeth Kristin Duffy
Matthew Bryce Fronda
Charles Edwin Harrell Jr.
William Lance Lewis
Thomas F.. Loose
Robert Thompson Mowrey
Stephen Colmery Parsley
Marcie Lynn Schout
Sam David Smith
Rebecca Kendall Yow

APPENDIX B

l

J.

Case 4:20-cv-00364-A Document 6 Filed 04/27/20

C

Page

APR 2 7 2020
IN THE UNITED STATES DISTRICT COIfRT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CLERK, tl.S. DISTRICT COURT
IN RE:
WILLIAM PAUL BURCH
Debtor,
WILLIAM PAUL BURCH,
Appellant,
VS.
JPMORGAN CHASE BANK N.A.,
Appellee.

IN RE:
WILLIAM PAUL BURCH
Debtor,
WILLIAM PAUL BURCH, ET AL.,
Appellants,

i

!

VS.
FREEDOM MORTGAGE CORP.,

i

Appellee.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

By

IX-pmv

Case No. 12-46959-MXM7
Chapter No.: 7

Adversary No. 19-04079-MXM
District Court Case
No. 4:20-CV-363-A

Case No. 12-46959-MXM7
Chapter No.: 7

Adversary No. 20-04007-MXM
District Court Case
No. 4:20-CV-364-A

'*•

Case 4:20-cv-00364-A Document 6 Filed 04/27/20

i

IN RE:
WILLIAM PAUL BURCH

§
§
§
Debtor,
§
§
§
WILLIAM PAUL BURCH,
§
§
Appellant,
§
§
VS.
§
§
HUGHES WATTERS ASKANASE, ET AL.,§
§
Appellees.
§
IN RE :
WILLIAM PAUL BURCH
Debtor,
WILLIAM PAUL BURCH,
Appellant,
VS.
HOMEWARD RESIDENTIAL, INC.,
Appellee.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

2

Page 2 of 4 PagelD 111

Case No. 12-46959-MXM7
Chapter No.: 7

Adversary No. 18-04176-MXM
District Court Case
No. 4:20-CV-365-A

Case No. 12-46959-MXM7
Chapter No.: 7

Adversary No. 19-04075-MXM
District Court Case
No. 4:20-CV-366-A

Case 4;20-cv-00364-A Document 6 Filed 04/27/20

Page 3 of 4 PagelD 112

i

IN RE:
WILLIAM PAUL BURCH
Debtor,
WILLIAM PAUL BURCH,
Appellant,
VS.
HOMEWARD RESIDENTIAL, INC.,
Appellee.

IN RE:
WILLIAM PAUL BURCH
Debtor,
WILLIAM PAUL BURCH,
Appellant,
VS.
OCWEN LOAN SERVICING COMPANY,
Appellee.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

Case No. 12-46959-MXM7
Chapter No.: 7

Adversary No. 19-04074-MXM
District Court Case
No. 4:2 0-CV-3 6 7-A

Case NO. 12-46959-MXM7
Chapter No.: 7

Adversary No. 19-04039-MXM
District Court Case
No. 4:20-CV-369-A

ORDER
Came on for consideration the motions of appellant, William
!

Paul Burch, in each of the above-captioned cases for leave to
appeal in forma pauperis. The bankruptcy judge has already
denied similar motions, finding among other things that
appellant has not provided any non-frivolous argument in support

3

. *•*
U

Case 4:20-cv-00364-A Document 6 Filed 04/27/20

Page 4 of 4 PagelD 113

of the appeals.1 And the bankruptcy judge has certified that the
appeals are not taken in good faith within the meaning of 28
U.S.C. § 1915(a) (3) . Based on prior appeals by appellant, the
court has no reason to disagree with the bankruptcy judge's
assessment.
The court ORDERS that appellant's motions for leave to
I

i

proceed in forma pauperis be, and are hereby, denied.
The court further ORDERS that the appeals in the above-

I

referenced cases may be dismissed unless the required filing
fees are paid by May 12, 2020.
SIGNED April 27, 2020.

i

!

!

i As noted in his order, the bankruptcy judge previously found that appellant's adult son does not qualify as a
dependent. Appellant does not qualify for a fee waiver under 28 U.S.C. § 1930(f).

4

APPENDIX C

1

%

%

i!

i

CLERK, U.S. BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS

I

ENTERED

i*

i*

THE DATE OF ENTRY IS ON
THE COURT’S DOCKET

m

G©

§%
4§SUj§CT

m

The following constitutes the ruling of the court and has the force and effect therein described.

X. MJL

Signed July 10, 2020

United States Bankruptcy Judge

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
In re:
William Paul Burch,
Debtor.

§
§
§
§
§

Case No. 12-46959-MXM
Chapter 7

ORDER (A) DESIGNATING WILLIAM PAUL BURCH AS A
VEXATIOUS LITIGANT. AND IB) GRANTING RELATED RELIEF
On July 7, 2020, the Court held a hearing on its Order to Show Cause Regarding (A)
Potential Designation of William Paul Burch as a Vexatious Litigant, and (B) Granting Related
Relief (the “Show-Cause Order").1 At the hearing, the Court noted that this Order would contain
an exhibit with a summary of the various motions, pleadings, and appeals filed by William Paul
Burch (the “Debtor") since the conversion of his Chapter 11 case to Chapter 7 that have been

ECF No. 800.

Page 1 of 6

denied or dismissed. Exhibit A to this Order contains that summary. In addition, the Court notes
that it warned the Debtor over a year ago that he needed to stop his abusive practice of filing more
lawsuits premised in whole or in part on baseless allegations, including that various lenders’ liens
were somehow invalidated in the Debtor’s 2008 Bankruptcy Case2 or 2012 Bankruptcy Case:3
THE COURT: We’ve relitigated - we’ve litigated these issues multiple
times. You’re going back to 2008. You’re going back to 2009. You’re going back
to 2010.
You filed two bankruptcies, and you filed two Chapter 11 s. Both of those
have been confirmed, one in this court, that you filed in 2015. Those issues were
all dealt with in your plan of reorganization.
The problem that you have is that you failed to comply with your plan of
•reorganization. All the liens and claims were deemed final and valid when that plan
was confirmed. That was your plan.
„•

And now to go back and try to say that there weren’t any liens, that’s just
contrary to the positions you took in.front-of this court, that you took with several
different attorneys in this court.

-3
.

And it’s becoming a little bit offensive that you keep going back. This is -1 don’t know how many times we’ve gone through this drill. And I’m trying to
be patient with you; I know now you’re not represented by a lawyer, so I’m trying
to give you the due opportunity to voice your positions, which I have, not only in
these adversary proceedings, in other adversary proceedings, and in your main
bankruptcy case.
All of these issues have been litigated, time and time again, artd you’ve lost
in your underlying bankruptcy case, in now three, different adversary
proceedings,^ and:when you lose, you continue to go back and file new lawsuits
in state court, which frankly, is a bit offensive.
f
But I’m giving you your opportunity to make your case. But if you’re going
to sit here and take up more time going through these same issues that we’ve been
through time and time again, going back to 2008, 2009, 2010, all of that is
irrelevant.
.

i

2 See Case No. 08-45761-RFN-l 1 (the “2008 Bankruptcy Case").
3 See Case No. 12-456959 (the “2012 Bankruptcy Case").
4 The Debtor is now up to 19 lawsuits.

Page 2 of 6

!

I

APPENDIX D

l

!

3
■v

Case; 20-10498

Bodumerit:'00515729363

Page: '

:Oate Filed;.02/02/2021

fHuiteb H>tateg Court of appeals!
fortlir jftftlj'Ctmut

j

1

f;

%r

No. 20-10498

t

X - ■ :

4

In the Matter of: William Paul Burch
/
>

s.

V*

Debtor.,

n

William Paul Burch,

n
Appellant,
• (-

' • ^

• .

y

t

• %

t

.

*

• ,

*

i-i

versus
’

*>•

: ?:

t t

>*

r\

Freedom Mortgage Corporation,

'3

Appellee,

*

1

In the Matter of: William Paul Burch

rt
Debtor,

William Paul Burch,
i

i

Appellant,

)•
v;
Vi

s

versus

i .

?•

JP Morgan Chase Bank National Association >

i’

Appellee,
J

c

I

*S’

T
4. ■

*

Case: 20-10498

Document: 00515729363

Page: 3

Date Filed: 02/02/2021

20-10498

Appellant,
versus
Homeward Residential, Incorporated,
Appellee,

In the Matter of: William Paul Burch
Debtor,
William Paul Burch,
Appellant,
versus
Ocwen Loan Servicing Company
Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CV-364
USDC No. 4:20-CV-363
USDC No. 4:20-CV-365
USDC No. 4:2Q-CV-366
USDC No. 4:20-CV-367
USDC No. 4:20-CV-369

ON PETITION FOR REHEARING EN BANC
F.3d

(Opinion Q1/Q8/21, 5 Cir.,

3

- •*.

Case: 20-10498

Document: 00515729363

Page: 4

Date Filed: 02/02/2021

20-10498

Before Jolly, Elrod, and Graves, Circuit Judges\
Per Curiam:
(x)

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

*Judge JONES did not participate in the consideration of the rehearing en banc.

4

'

'A

Case: 20-10498

Document: 00515729385

Page: 1

Date Filed: 02/02/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

February 02, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-10498

Burch v.
USDC No.
USDC No.
USDC No.
USDC No.
USDC No.
USDC No.

Freedom Mortgage
4:20-CV-364
4:2O-CV-363
4:20-CV-365
4:20-CV-366
4:20-CV-367
4:20-CV-369

Enclosed is an order entered in this case.
See FRAP and Local Rules 41 for stay of the mandate.

Sincerely,
LYLE W. CAYCE, Clerk

cSfi, £. £
By: ___________________________

Lisa E. Ferrara, Deputy Clerk
504-310-7675

Mr.
Mr.
Ms.
Mr.
Mr.
Mr.
Mr.
Mr.
Mr.
Ms.
Mr.
Ms.

Marc James Ayers
William Paul Burch
Elizabeth Kristin Duffy
Matthew Bryce Fronda
Charles Edwin Harrell Jr.
William Lance Lewis
Thomas F. Loose
Robert Thompson Mowrey
Stephen Colmery Parsley
Marcie Lynn Schout
Sam David Smith
Rebecca Kendall Yow

